GENISYS CREDIT UNION

Genisys Rewards Credit MasterCard Cardholder Agreement and Disclosure
THIS INFORMATION IS ACCURATE AS OF 03/31/20 AND MAY CHANGE.
To find out what may have changed call us at 248-322-9800 x5, 800-521-8440 x5, or write to us at P.O. Box 436034, Pontiac, MI 48343-6034.

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

APR for Balance Transfers
APR for Cash Advances
Penalty APR and When It
Applies
Paying Interest

Minimum Interest Charge
For Credit Card Tips from
the Consumer Financial
Protection Bureau

Fees

Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transactions
Penalty Fees
• Late Payment
• Returned Payment

10.24% - 18.00%

This APR will vary with the market based on the Prime rate.
10.24% - 18.00%
This APR will vary with the market based on the Prime rate.
10.24% - 18.00%
This APR will vary with the market based on the Prime rate.
None
Your due date is at least 28 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the transaction date.
None
To learn more about factors to consider when applying for or using a
credit Card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore
None
None
None
Up to 1.1% of each transaction in U.S. dollars
Up to $25.00
Up to $26.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new
transactions)”. See your account agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
the attached account agreement.
Rate Information, including periodic rates, corresponding APRs and margins
Purchases
The following periodic rate and corresponding APR applies to all purchases made under this account.
Periodic Rate: .98%-1.50%
Corresponding APR: 10.24%-18.00%
Your purchase APR is equal to the Prime rate plus a margin of 6.99% - 13.99%.
Cash advances
The following periodic rate and corresponding APR applies to all cash advances made under this account.
Periodic Rate: .98%-1.50%
Corresponding APR: 10.24%-18.00%
Your cash advance APR is equal to the Prime rate plus a margin of 6.99% - 13.99%.
Balance transfers
The following periodic rate and corresponding APR applies to all balance transfers made under this account.
Periodic Rate: .98%-1.50%
Corresponding APR: 10.24%-18.00%
Your balance transfer APR is equal to the Prime rate plus a margin of 6.99% - 13.99%.

CARDHOLDER AGREEMENT
Agreement Terms- The words “you” and “your” mean or refer to each and all persons who have applied for the Card or Cards by signing this
Agreement. “Card” means the MASTERCARD Credit Card or Cards and any duplicates and renewals thereof or substitutions therefore we
may issue. “Account” means your MASTERCARD Credit Card line-of-credit loan account with us. “We”, “us” and “ours” means or refers
Genisys Credit Union.
1.

2.

3.

4.

5.

6.

Acceptance of Agreement/Responsibility – The use of your
Account or a Card by you or anyone whom you authorize or
permit to use your Account or a Card means you accept this
Agreement. You promise to repay all debts and any fees and
interest arising from any authorized use of the Card. You agree
not to let someone else use the Card. If you do, you are
agreeing with us that you authorize all use that person makes of
the Card. Therefore, you will be liable for all such use of the
Card. Of course, once you notify us we will take prompt steps to
try to prevent any further Card use by that person. If this
Agreement is signed by two persons, the Account is joint; that is,
each of you, separately and jointly with each other, is liable for
all debts on the Account and any fees or interest thereon. Your
obligation to pay all such debts and any fees and interest
thereon continues even though an agreement, divorce decree or
other court judgment to which we are not a party may direct that
only one of you, or some person other than you (or both of you),
must pay such debts and any fees and interest. You may not
use your Card or Account for any illegal or unlawful transaction.
Credit Limit – We will establish line-of-credit for you and will
notify you of the credit limit. You agree not to let your Account
balance exceed your credit limit. We may honor transactions in
excess of your credit line at our sole discretion. If at any time
your balance exceeds the credit limit, you agree to pay us that
excess immediately. Each payment you make on the Account
will replenish your credit limit by the part of that payment which
is applied to principal. If you request an increase in the credit
limit, such increase must be approved by us. We may change
your credit limit from time to time and for any reason.
Closing Your Account -- We also may revoke your Card and
terminate the Account and this Agreement. You may terminate
this Agreement at any time and for any reason by giving us
written notice. Nevertheless, termination by you or by us does
not affect your obligation to pay all debts and any fees and
interest thereon arising from authorized use of your Card. The
Cards remain our property and you must recover and surrender
to us all Cards upon our request or upon termination of this
Agreement.
Using the Card – We will send you a Card or Cards embossed
as you have directed. As soon as received, each Card must be
signed (in the space provided on the back) by the person whose
name is embossed thereon. That signature must be in the same
form as embossed on the front of the Card. You can also use
your Card together with your Personal Identification Number
(PIN) to get a Cash Advance from an automated teller machine
(ATM) in the MASTERCARD network, to get a Cash Advance
from a MASTERCARD financial institution or make a Purchase
from a merchant that uses the Card in an electronic terminal that
accesses the MASTERCARD system.
Authorization – We do not guarantee authorization of a
transaction, either by us or a third party, even if you have
sufficient credit available. We reserve the right to deny certain
transactions for any reason and at our sole discretion, including
for default, suspected fraudulent or unlawful activity, internet
gambling, or any indication of increased risk related to the
transaction or the Account. You agree that we will not be liable
for failing to give an authorization. We also reserve the right to
limit the number of transactions that may be approved in one
day. If we detect unusual or suspicious activity, we may suspend
your credit privileges until we can verify the activity, or we may
close the account.
Balance Transfers – Balance transfers may include the transfer
of outstanding balances by you to your Account from credit
accounts issued by persons other than us. If you transfer a
balance to your Account, the available credit on your Account

will be reduced by the amount you transfer. Total balances may
not exceed your available credit limit.
7. Cash Advance by Machine – If ATMs or other electronic
devices are available while this Agreement remains in effect
which make it possible for you to obtain a Cash Advance by use
of your Card in such a machine, we will furnish you with a secret
PIN. Your use of the PIN, together with your Card, in getting a
Cash Advance from such a machine is agreed to constitute your
signature for purposes of such Cash Advance.
8. Personal Identification Number (PIN) – We will furnish you
with a PIN. You agree to keep the PIN secret. You also agree
you won’t write the pin ON THE CARD or anything you keep
with the Card. Your use of the PIN and Card in getting a Cash
Advance or making a Purchase is agreed to constitute your
signature for purposes of such transactions.
9. Late Fee – If we do not receive a payment from you in at least
the amount of your minimum monthly payment by the Payment
Due Date shown on your monthly statement, we may charge
you a late fee in the amount of up to $25. You will only be
charged one late payment fee for any minimum monthly
payment which is not paid by the Payment Due Date.
10. Returned Payment Fee –We may add a fee of up to $26 to
your Account if a payment check or similar instrument is not
honored or returned because it cannot be processed, or if an
automatic debit is returned unpaid.
11. Minimum Monthly Payment – If the New Balance shown on
your monthly statement is less than $25.00, your Minimum
Monthly payment (due by the Payment Due date) is your New
Balance. Otherwise, the Minimum Monthly payment for each
billing cycle will be the total of: 1) $25.00 or 2% of your new
Balance, whichever is greater; 2) Any amount in excess of your
credit line; and 3) Any amount past due. You may pay more
than the Minimum Monthly payment and may, at any time, pay
the full amount you owe us without penalty for prepayment.
12. Variable Rate Information – We calculate any APR based on
the U.S. Prime Rate (“Prime rate”) and by adding a margin to
the Prime rate. Your margin is identified in your account opening
information. Your APRs are variable and may increase or
decrease if the Prime rate increases or decreases. For each
billing period, we use the Prime rate published in the Wall Street
Journal on the last day of the month during that billing period. A
change in the APR due to a change in the Prime rate takes
effect as of the first day of the billing period for which we
calculate the APR. We apply the new applicable APR to any
existing balances, subject to any promotional rates that may
apply, and as allowed by law. If the APR increases as a result of
the Prime rate increasing, your interest charges will increase
which may also cause your minimum payment to increase.
13. Interest Charges –Interest charges are a finance charge added
to your Account when we apply the applicable Annual
Percentage Rate (APR) to your balances on your account. We
figure the interest charge on your account by applying the
periodic rate to the “average daily balance” of your account. We
calculate interest separately for each Balance Subject to Interest
Rate. These include for example, Purchases at the current rate,
Cash Advances at the current rate and Balance Transfers at the
current rate. Your monthly billing statement shows each Balance
Subject to Interest Rate. To calculate interest, we first calculate
an “average daily balance” for each Balance Subject to Interest
Rate, as described herein.
Purchases: To get the “average daily balance” of Purchases, we
take the beginning balance of Purchases of your account each
day, add any new Purchases, and subtract any unpaid interest
or other finance charges and any payments or credits. This
gives us the daily balance for Purchases. Then, we add up all
the daily balances for the billing cycle and divide the total by the

number of days in the billing cycle. This gives us the “average
daily balance” of Purchases.
Cash Advances: To get the “average daily balance” of Cash
Advances, we take the beginning balance of Cash Advances of
your account each day, add any new Cash Advances, and
subtract any unpaid interest or other finance charges and any
payments or credits. This gives us the daily balance for Cash
Advances. Then, we add up all the daily balances for the billing
cycle and divide the total by the number of days in the billing
cycle. This gives us the “average daily balance” of Cash
Advances.
Balance Transfers: To get the “average daily balance” of
Balance Transfers, we take the beginning balance of Balance
Transfers of your account each day, add any new Balance
Transfers, and subtract any unpaid interest or other finance
charges and any payments or credits. This gives us the daily
balance for Balance Transfers. Then, we add up all the daily
balances for the billing cycle and divide the total by the number
of days in the billing cycle. This gives us the “average daily
balance” of Balance Transfers.
14. Grace Period – Interest charges begin to accrue on
transactions from the date it is added to the daily balance and
continue to accrue until payment in full is credited to your
Account. Your due date is at least 28 days after the close of
each billing cycle. We will not charge you any interest on
Purchases if you pay your entire balance by the due date each
month. We will begin charging interest on Cash Advances and
Balance Transfers on the transaction date. Cash Advances and
Balance Transfers do NOT have a Grace Period.
15. Payments – We may accept late payments, or partial payments
and payments marked “payment in full” without losing any of our
rights under this Agreement.
16. Credits –If your credits and payments exceed what you owe us
on the Account we will credit such excess to the Account and, if
the amount is $1.00 or more, we will credit it to your share
account after 6 months or upon your written request.
17. Foreign Transactions – Purchases/Returns and Cash
Advances made in foreign countries and foreign currencies will
be billed to you in U.S. dollars. The conversion rate to dollars
will be at (1) the wholesale market rate or (2) the government
mandated rate, whichever is applicable, in effect one day prior to
the processing date, increased by one percent. When you make
a transaction outside of the U.S., a fee up to 1.1% of the
converted transaction amount will be applied to your account as
permitted by law. The foreign transaction fee is a finance
charge. Interest does not accrue on the fee.
18. Lost or Stolen Cards – If you notice the loss or theft of your
Card or a possible unauthorized use of your Card or your
Account, you should write to us immediately at the address
listed on your monthly statement, or call us at the number shown
on your monthly statement. If your MASTERCARD is lost or
stolen on a weekend, holiday, or after Credit Union hours, call
(888) 241-2510 (domestic) or (909)-941-1398 (international).
You will not be liable for any unauthorized use that occurs after
you notify us. You may be liable for unauthorized use that
occurs before your notice to us. However, if you exercise
reasonable care in safeguarding your card from risk of loss or
theft and, upon discovering the loss or theft promptly report the
loss or theft to us, you will not be liable for any unauthorized
transactions. In any case, your liability will not exceed $50.
19. Default – Your Account will be in default and we may demand
payment of the entire amount you owe us without giving you

20.

21.

22.

23.

24.

25.

26.

prior notice, subject to applicable law, if (a) you fail to make at
least the Minimum Payment by the due date shown on your
monthly statement; (b) you fail to comply with any terms of this
Agreement or any other Agreement you have with us; (c) if we
determine that your creditworthiness (which includes your ability
to repay us) has become unsatisfactory due to change in
employment, increase in your other obligations, or because of
any other reason; or (d) in the event of your death. In the event
of any default or in the event this Agreement is terminated by
you or by us for any reason, the entire balance on the Account
becomes due and payable forthwith. You also agree that, in
case of default, you will pay all usual and customary costs of
collection permitted by law including reasonable attorney fees.
Credit Information – You authorize us to investigate your credit
standing when opening, renewing or reviewing your Account,
and you authorize us to disclose information regarding our
experience with you under this Agreement to credit bureaus and
creditors.
Contact Information – You agree to notify us of a change in
address or other contact information. If we need to contact you
regarding your Account, you authorize us, or our agents and
contractors, to contact you at any telephone number you
provide, from which you call us, or at which we believe we can
reach you. We may contact you in any way including calling or
text messaging you. We may contact you using a prerecorded
message or an automated dialer. We may contact you on a
mobile phone or similar device even if you are charged for such.
Effect of Agreement – This Agreement contains our complete
contract relating to the Account and applies to every transaction
relating to the Account even though a sales or Cash Advance
draft you sign or a credit slip may contain different terms.
Amendment of Agreement – We reserve the right to change
the terms of this Agreement and your Account at any time for
any reason, as permitted by law. We will provide you notice of
such changes as required by law. Any changes to this
Agreement or your Account are binding on you.
Collection Costs – If we refer collection of your Account to a
lawyer who is not our employee, you are liable for any
reasonable attorney fees we incur, plus the costs and expenses
of any legal action, to the extent allowed by law.
Returned MASTERCARD Check Fee – We may add a fee of
up to $26 to your Account, in accordance with applicable law, if
we decline to honor a MASTERCARD Check. We may decline
to honor a MASTERCARD Check if, for example, the amount of
the check would cause you to exceed your credit limit, you are in
default, you did not comply with our instructions regarding the
check, or your Account has been closed.
MASTERCARD Checks We are not obligated to pay a
MASTERCARD Check if, at the time the check is presented, you
are in default of this Agreement, we have revoked your right to
use your MASTERCARD Card, your Account is closed for any
reason, or if your Card has expired. Each check must be in the
form we have issued you. These checks may be used only by
the person(s) whose name(s) is/are printed on the check, and
may not be used to pay an amount owed us under this or any
other account or agreement that you have with us. You are
responsible for all authorized use of your checks to pay any
amount which you owe under this Agreement. We are not
obligated to certify these checks nor will we return paid checks
to you.

Your Billing Rights: Keep This Document For Future Use
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at:
Genisys Credit Union
2100 Executive Hills Blvd
Auburn Hills, MI 48326

In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing [or electronically]. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the
error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send
you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount
we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of anyone
to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct
the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price must
have been more than $50. (Note: Neither of these necessary if your purchase was based on an advertisement we mailed to you, or if we
own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Genisys Credit Union
2100 Executive Hills Blvd
Auburn Hills, MI 48326
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

YOUR SAVINGS ARE SECURITY FOR THIS CONTRACT
You give us a security interest in all present or future shares or deposits
in Genisys Credit Union which you have the right to withdraw for your
personal use. If your Account is in default as defined in this Agreement or
under applicable law, we can apply money from your shares or deposits to
this Account for any payments that are past due, as well as for any fees or
other charges.

